0
IN RE THE SUPREME COURT OF THE UNITED STATES

Olivia Douce Sui Juris as beneficiary,, as Trust etc.,
TRUSTOR PERELENA DOUCE decease.
Plaintiff, Appellant,

v.
BREVARD COUNTY TAX COLLECTOR No:05-2015-CA-38428
OCEAN TAX DEED INVESTMENT LLC„ MURRAY ANDRIAN
ANDREA,

Defendant and Respondent.

FILED
AUG 3 1 2020
g5gRCfM°/r7ffi^Rj<

IN THE SUPREME COURT OF UNITED STATES FROM BREVARD
COUNTY FIFTH CIRCUIT COURT From JUDGE HARISS DEFAULT ORDER

PETITION BRIEF ON FOR EXTRAODINARY WRIT FOR MANDAMUS

Miss Olivia Douce self own Consul
50 E. 191 Street, 4 M
Bronx New York 10468

1646-353-4429, 929-343-8020

r'

i
QUESTION
Weather Court abuse its discretion conflict with this court and other courts decision
weather appellee proceedually followed notice or served on Trust or beneficary
weather trial court lack jurisdiction was appellant deprive due process of law
whether the Title house was properly transferred into the trust.

/■

ii
LIST OF PARTIES
The Caption in this case contain all the names in this proceedings to the Supreme Court of the United States
(BREVARD County TAX COLLECTOR No:05-2015-CA-38428 OCEAN TAX DEED INVESTMENT
ANDRIAN ANDREA, Defendant and Respondent.

LLC., MURRAY

A?

Ill

Page

TABLE OF CONTENT
OPENION
JURISDICTION

1

CONSTITUTION AND STATUTORY PRVISION INVOLVED
. J.
NATURE OF THE CASE

1

1 STATEMENT OF THE CASE NATURE A FACTS
B HISTORY

2

2.11 CONTENTIONS OF THE PARTIES REASON FOR GRANTING WRIT 3
111. STANDARD OF REVIEW
IV CONCLUSION

5
6

iv
TABLE OF AUTHORITIES CASE LAWS
PRATT, Super.Ct.No. 960479) and LINDA CASWELL

page

1
2

Mullane v. Central Hanover Bank & Trust Co., 339 U.S. 306 (1950
339 U. S. 320, Pp. 339 U. S. 311-313

2 3

holding In re Western Trading Co 340 F. Sup.1130 D.Nev. 1972.

_/

State v. Atlantic Oil production Co, v U.S, in Redfield v Sparks
NYS Fioson case,
Kalb. Feuerstein (1940) 308 US 433,60 S Ct 343, 84 ed 370).

3

Trinsey v Pagliaro 229,647 , Ruff v Issaac
(Anaconda Co v. Franchise Tax Board (1982) 130 Cal.App.3dl5,23.)

4

In re Estate of Mendelson, 2015 IL App (2d) 150084.

5

Say & Say, Inc. v. Ebershoff (1993)20 Cal.App.4th 1759,1767-1769.

5

Mendelson court noted

5

Ross v. Ross, 406 III. 598 (1950).

5

(Goodwin v. United States (9th Cir.1991) 935 P.2d 1061,1064-1065.)

4

V

TABLE OF AUTHORITIES RULES
Section 6335 6065 Rule 4, 28USC 1651, R.Sec.1738

Page
1

Article 3 Section 2 , Rule.17, 28 USC 6151 Rule 20 Rule 10
Stat.10 701, 5th 14th R.60 R.33

1

18 USC 2071

2

26 United States Code 6065, section 6335(a

5

Art 1 section 2 an United States Const due process of law

3

Cl of 5th amend, Art 3 section 2 R.20, R. 6335 R. § 6065

-3-4

vi
LIST OF INDEX TO APPENDIX

Page

1

A. Order void writ possession Title

1

B. Lis pendent - UCC1 NOTICE letter refused
C. Affidavit counter objection was not docket moot

2
2-3

< D.. 24-hour notice improper lien 5 days

2 3

. i

4

E. Trustee Crystal Maye and 4 Affidavit Witness of Trust signed 2- 4
Oliver-Vaughn:Douce A1 Dey Melissa Foster O. D. birth

4

duplicate copy of original Blanch Bale Private Irrevocably Living Trust
Police Letter 12/9/2009,and Money Order BCTAX

\

1
PETITION FOR EXTRAODINARY WRIT FOR MANDAMUS
I Olivia Douce Sui Juris retain allrights without waiving right perceedual petition this court for order
relief redress in violation Section 6335 6065 Rule 4 no service on trust or beneficiary status diversity .

OPENION BELOW ORDER WRIT OF POSSESION
The local court Judge Harris lack jurisdtion erred in default summerary judgment order granted
possesion viod to defendants, petitioner relief brief aid this court to vacate fraudulant order, in App A.
JURISDICTION
The original Jurisdiction of the Supreme Court of the United States confered on Article 3 Section 2
R.17 28 USC 1251,1651a. Rule 20. Rule 10 conflict other courts 28 USC1738 mandamus declaratory
order. In violation 5th no service R.6335 on petitioner, or trust, decease trustor had no interest in land
CONSTITUTION AND STATUTORY PRVISION INVOLVED
The constitution issues of this involved violation of petitioner 5th and 14th amendment due process of
right protected gauranteed by law, violate R.6335 an fraud. Declaration also on 10 Stat. 701. required.
STATEMENT OF THE CASE
A nature of the case
Quasi in rem refers to a legal action reference, have 4 attach witness testimony, by. affidavit.
I. FACTS
Background, now for Quiet Title under statue of fraud violate R.6335 Rule.4 service. Rule.60
This action Quasi in rem refers to a legal action involves a dispute over ownership of private property
located on. 1637 Hays street Palm Bay Florida (the private home land property).A One heirMiss. Olivia
Douce appellant beneficiary and, the other brother

Foot note Case LAW UNPUBLISHED IN OFFICIAL REPORTS APPEAL OF THE STATE OF CALIFORNIA FIRST APPELLATE DISTRICT DIVISION
FOUR FIRST APPELLATE DISTRICT DIVISION FOUR Petitioner relied on PRATT, Super.qt.No. 960479) and LINDA..CASWELL, as Trustee etc.,Plaintiff and Appellant, A074955 The trust was not notified or served. The Illinois Appellate Court in Mendelelson held when a trust
instrument list a house as part of the trust the house belong to the trust, even if the deed was not fomally transfered there.

JL

B.Travone Foster the sole beneficary, no service or notice on trust or appellant. The defendant
Brevard County Tax Collector illegally forclose sold to Ocean Tax Deed LLC is, who paid $66,000 as the
successful bidder at a, Brevard County Tax deed Sheriff sale, Internal Revenue Service (IRS) auction, of
the household on July 23, 2015. The other defendant Murray Brevard County Tax collector. Claimant is
Perelena Douce decease trustor, as heir A . Olivia Douce grand daughter son B.Travone Foster is
benificary of the irrevocable Private living Trust owner(Blanch Bale Trust 2009 own the land and
house ). built by the trustor no debt owded. The Trust’s claim is based on a transfer of title by
Perelena Douce Will grant house to fund in Blanch Bale Trust, actually assets place into it (that is,
change the title on the assets to the name of Blanch Bale trust) for life, the trustor was of sound mind
competency and understanding of that procedure, trustee witness by Crystal Maye, App E 4 witnesses
on November 10, 2009. Prior to her death, on grand daugther up on her death and grand son B.
Travone Foster age now 26 that was,
transfer (specifically, in 10 Nov. 2009), the IRS or Brevard County Tax collector recorded no lien, or
purported lien against the private property as part of an effort to collect allege taxes the (IRS) Braverd
tax collector claimed illegally allege, Perelena Douce, had no interest, in that land household goods,
the decease, owed no prior taxes form the 2009, and to 2015 tax years. The irrevocable private living
Blanch Bale Trust took title to house in 2009, the heir benificary, was 12

years old, this grand

daughter Olivia Douce, use to live at 291 East 143 Street apt 3a Bronx in New York 10451 was not
aware of any purported lien, with no R.4 personal service no notice or signed under oath, or
requirement by R.6335, 6065 assesment under oath done. There is a conflict among the courts of
appeals on the questions presented by petitioner. See Mullane v. Central Hanover Bank & Trust Co.,
339 U.S. 306 (1950) Out-of-state residents cannot be expected to be informed by statements in a local
FLORIDA newspaper defendant deal with the property as if no trust existed; persons dealing with the
trust property must strictly observe the trust's features. See Clerk refuse to accept filing UCC notice
App B letter.
B. History of Litigation
In 2015 by Ocean Tax Deed LLC

filed a writ possesion action against the individual Oliver-

Vaughn:Douce then filed affidavit objection moot counter-claim challenge defendants action against
the Trust, for some unknown reason by clerk violate 18 USC 2071, affidavit objection was not docket,
App C, against defendants Ocean tax deed seeking to have title possesion order in there name and
advancing claims for unlawful detainer/ejectment, conversion and slander of title. When no trial or
hearing was held, the court opined grant defendant order for possesion by Judge Harris lack
jurisdiction, no service or notice on trust, and ignored the filed objection affidavit demand still de
novo pending, defendant not agreed that the facts were essential with controversy dispute service.
App-A writ order void. Bad faith that warrant vacate remand reversal with prejudice.Accordingly, the
defendants filed no individual statements of "agreed facts," along with no

supporting affidavit,

testimony admission documents.The court errer decided the case based on default the"possesion
order with no facts" and the documents. The trial court found that the IRS Brevard county tax collector

3
tax deed sheriff aution

without discovery or followed proper procedures in levying upon the private

property and that title should be vested as in Pratt, and Linda caswell case, as appellants case. The
court entered judgment to ocean tax Deed LLC as Pratt's compared case favor, awarding them
"possession 21/9/15 " from August 8/21/15.

June 16, title 1992, through the date of 7/23/15

surrender by force off the Land title no notice on trust. App D. 24 hour notice.
violate 6335 R. § 6065. Verification of returns Except as otherwise provided by the Secretary, any
return, declaration, statement, or other document required to be made under any provision of the
internal revenue laws or regulations shall contain or be verified by a written declaration that it is made
under the penalties of perjury. No clear title change hand as Ruff v. Isaac.
II. CONTENTIONS OF THE PARTIES. REASON FOR GRANTING THE WRIT
Rule 20 justify granting this writ aid of the court appellate jurisdiction that exceptional circumstances
now warrant the exercise discretionary powers, and adequate relief cannot be obtained in any other
form or ffrom any court, in conflict. 339 U. S. 320, Ross v. Ross, 406 III. 598 (1950).
Miss Olivia Douce, or beneficiary trust, not notice or served as in Caswell and Tejada claim as
appellants

that the trial court erred in finding that the IRS brevard have not followed proper

procedures. They specifically assert that a valid lien was not established on the property because
certain IRS short comings in the initial phases of the collection process namely,(a) failing to send
Blanch Bale private living Trust notice or service, house held in trust, same as in Mandelson as case, in
Tejada a valid notice of deficiency form tax years 1992 and 2015, (b) failing to make a valid assessment
R. 6065 of the taxes due for those years, holding In re Western Trading Co 340 F. Sup.1130 D.Nev. 1972
holding not deem to be owing. State v. Atlantic Oil production Co, v U.S. reversed, and (c) failing to
mail a valid notice on trust and demand for payment within 60 days of each assessment- invalidate
any IRS lien on the property and, thus, the sale to Ocean Tax Deed as in Pratt case. Appellant also
claim that the brevard conty tax collector IRS's failure to give Blanch Bale private Trust notice now of
age 23 yrs old Olivia Douce sole benefeciary an Tavone Foster as Caswell proper notice of the seizure
and sale, to the beneficary property invalidates the sale. As in Pratt defendants takes issue with both
arguments and further asserts that the Trust lacks standing to challenge the procedures employed by
the Brevard county tax collector IRS which led to the creation of a illegal false

lien against the

property, in re Redfield v Sparks under the statue of limitation cannot protect illegal fraudulant tax
deed is void, conflict violate R. 10, 28 USC 1738 full faith and credit Cl The Illinois Appellate Court in
Mendelelson, and NYS Fioson case on forge deed, conflict with US Supreme Court Center.339 US 306
(1950) -- Justia US Supreme Court. Violate 5th 14th Amendment due process of rights laws._______
2 foot note . On appeal to this Court, reversed, p. 339 U. S. 320.Notice is the legal concept describing a
requirement that a party be aware of legal process affecting their rights, obligations or duties. There are several
types of notice: public notice (or legal notice), actual notice, constructive notice, and implied notice.resident or
nonresident, provided its procedure accords full opportunity to appear and be heard. Pp. 339 U. S. 311-313.

4
Because we find merit in Tejada's and the Trust's argument that Caswell was not given proper notice
of proposed sale of the seized property, we need not resolve whether the stipulated evidence
introduced in the present case was sufficient to establish compliance with the requirements necessary
to create a valid tax lien on the property. Therefore we do not address their assertions regarding IRS
errors in attempting to collect from Tejada. Our conclusion in turn, moots defendants Brevard tax
collector as Pratt's standing argument . void state circuit court Harris judgments' referance to Kalb.
Feuerstein (1940) 308 US 433,60 S Ct 343, 84 ed 370). Federal judges issused void order. See 24 hours
notice App D.
also see Trinsey v Pagliaro 229,647 argument motion by attorney are insufficient not facts or
testimony defendants case was presented on writ of possesion,from court default, see name on app-d
Oliver-Vaughn:Douce, exparte without service notice on trust, house held in trust for beneficary grand
daughter Olivia Douce 17 yrs old at the time 2015, and Travone Foster had no day in court, over the
auth Rep: Oliver-Voughn:Douce Al Dey affidavit counterclaim filed objection moot App-C not heard or
docket violate 2071 in violation FI State constitution Art 1 section 2 an United States Const due
process Cl of 5th amend, Art 3 section 2 for House land held in trust.
III. STANDARD OF REVIEW
Because the case was presented on( stipulated facts), we review the record de novo. (Anaconda Co v.
Franchise Tax Board (1982) 130 Cal.App.3dl5,23.)
compared with this present case writ possession order 21/9/15 to vacate void appeal from
IV. ANALYSIS: THE IRS'S FAILURE TO GIVE PROPER NOTICE TO THE TRUST OF THE SEIZURE AND SALE
INVALIDATES THE SALE
Under 26 United States Code 6065, section 6335(a), once real property has been seized, the IRS must
give written notice to"the owner trust" of the property. Under subdivision(b) of that section, notice of
the proposed sale of the property must also be given to the owner in the manner provided in
subdivision (a). Both subdivisions have been interpreted as requiring personal service on the property
owner. (Goodwin v. United States (9th Cir.1991) 935 P.2d 1061,1064-1065.) The IRS must strictly,

2 foot note In Mullane v. Central Hanover Bank & Trust Co., 339 U.S. 306 (1950) Annotation Primary
Holding Reasonable steps must be taken to give potentially interested parties notice of an action and
an opportunity to respond, and notice by publication may be insufficient if the names and addresses
of non-resident parties are available. The use of publication notice violates the Fourteenth
Amendment Due Process of law Clause because it creates the possibility that parties will be deprived
of their property without the opportunity to be heard. By contrast, it does not raise due process
concerns with regard to unknown and future interest holders.

5
comply with the notice provisions of 26 United States Code section 6335; failure to do so invalidates a
seizure and sale of real property, (Ibid) Void;
Here, the required notices of seizure and sole were personally served on Tejada, but no notices were
served on Caswell as Miss Olivia Douce or on living Blanch Bale trust. The question then becomes
whether or not service on Tejada, as to Oliver-Vaughn:Douce was sufficient for 26 United States Code
section 6335 purposes. Pratt offers two theories in support of the proposition that such notice was
adequate. App D 5 day notice an 24.
Pratt first argues that service on Tejada should be deemed service on the Trust because Tejada was
the"agent" of theTrust. Pratt points out that, when the Trust was first created, Tejada was a trustee
and that Tejada was still a trustee when the first IRS notice of seizure was served in November 1991.
Pratt also notes that Tejada continued to reside on the property, actingas its "caretaker," after Caswell
became the sole trustee in December 1991.
Pratt's argument fails factually and legally. First, after Tejada resigned as trustee, the IRS served a
corrected notice of tax lien, followed by an amended notice of seizure (which purported to correct the
erroneous inclusion of Tejada's former wife in the original notice.) The sale was ultimately conducted
pursuant to that amended notice. See notice to individual Oliver-Vaughn:Douce, not Miss Olivia
Douce, the Trust owner sole benificary, an Travone Foster were out of state or trust Crystal Maye
Trustee, App E Olivia birth and affidavits title,
Thus, Tejada was not a trustee when the operative notice of seizure was served on him. Second,
Tejada was not a trustee when the notice of sale was served on him. Third, the notices in question
were not served on Tejada as agent for the Trust; As Blanch Bale living irrevocable private Trust, as
compared Oliver-Vaughn:Douce they were directed to him as an individual. And finally, Pratt provides
no authority for the proposition that Tejada's position as"caretaker" would constitute authority to
receive notices on behalf of the Trust even if the notices had been addressed to that entity.
Pratt also argues that the Trust should be deemed the"alter ego" of Tejada and, thus, that service of
the notices of seizure and sale on Tejada should be deemed service on the Trust. In support of the first
portion of his argument, Pratt asserts that under the trust agreement Tejada "retains the right to draw
upon trust bank accounts and receive a salary from the trust...." Pratt also notes that Tejada lived on
the property and had his "housing expenses" paid by the Trust. Pratt further notes that the Trust
has"no independent source of income" and that"most of the accounts" for the property continue
under Tejada's name. (Italicsadded.)
There are two significant problems with Pratt's arguments. First,"alter ego" is a doctrine, pursuant to
which an entity or legal form, such as a corporation or trust, is disregarded in order to impose liability
on an individual; it is invoked to avoid inequity.(Say & Say, Inc. v. Ebershoff (1993)20 Cal.App.4th 1759,
1767-1769.) Pratt fails to establish that inequity would flow from our failure to invoke the doctrine in

6
the case at bench. We first note that Pratt does not contend and we find no facts in the record which
would support a contention that the Trust was not a valid legal entity. As far as fairness to the IRS
bravad County tax Collector, and Pratt are concerned, the conveyance of title from Tejada, compared
Perelena Trustor will 2009 to the funded living Trust owner as in 1992 was a matter of public record
UCC1 notice as Lis pendent App B. Indeed, the notice of encumbrances on the property which the IRS
brevard county provided to Oliver-Vaughn:Douce as in Pratt before the sale informed Pratt of the
conveyance, not to the trust. Thus, both the IRS brevard county tax collector as Pratt had actual, as
well as constructive, notice of the Trust's status as title holder to the house land location property. The
IRS brevard county was thus under a duty to serve its,
notices on Caswell and Pratt should certainly have checked to be certain that the IRS's brevard tax
notices conformed to law. Thus, there is no equitable reason to invoke the"alter ego" doctrine to find
that service on Tejada as Oliver-Vaughn:Douce constituted service on the Trust.
We also note that even if we were to"disregard" the Trust for the purpose suggested by Pratt, the
Trust is still a viable legal entity which"owns" the property. If an owner's actual knowledge of a seizure
and sale is inadequate to validate a sale absent strict compliance with 26 United States Code section
6335 notice requirements (see discussion in fn. 1, ante),we have grave doubts that service on Tejada
in his capacity as the"alter ego" of the Trust would be deemed sufficient under federal law.
Saldamando, J.* We concur: Hanlon,PJ. Poche, J.

* Judge of the City and County of San Francisco Superior Court, assigned by the Chief Justice pursuant
to article VI, section 6 of the California Constitution.

3 Foot note In an article written in the Illinois Bar Journal, November 2015, attorney Sherwin Abrams
was referenced as having compared the Mendelson case to the case of Ross v. Ross, 406 III. 598
(1950). Although a trust instrument stated the house was part of the trust, there was no separate,
formal documentation demonstrating a transfer of the home into the trust. When considering
whether the home was properly transferred into the trust, the Mendelson court noted that it could
"find no Illinois authority on point." In re Mendelson, at H 30. The court held that the house was
indeed part of the trust despite the absence of a recorded deed transferring the real estate to the
trust. The case quickly sparked discussion among members of the ISBA's transactional email discussion
group. Several raised the concern that unsuspecting purchasers of real property will learn to their
dismay that the property they bought had previously been transferred to a trust without that transfer
having been recorded.

7

The judgment should reversed. The trial court bad faith should be hereby directed to enter judgment
quieting title in this private living Blanch Bale Trust appellant to beneficiary, defendant Brevard conty
as, in Pratt to bear costs of appeal.
The Illinois Appellate Court in Mendelson held that when a trust instrument lists a house as part of the
trust, the house belongs to the trust even if the deed was not formally transferred there. Critics worry
the ruling could put unsuspecting purchasers at risk. On September 9, 2015, the Illinois Appellate
Court issued its ruling in In re Estate of Mendelson, 2015 IL App (2d) 150084.
Foot note
Mullane v. Central Hanover Bank & Trust Co., 339 U.S. 306 (1950), was a case in which the Supreme Court of the United
States set forth the constitutional requirements for notice of judicial proceedings to a potential party under the 5th and
Fourteenth Amendment to the United States Constitution. The right to property or right to own property is often classified
as a human right for natural persons regarding their possessions. A general recognition of a right to private property is
found more rarely and is typically heavily constrained insofar as property is owned by legal persons and where it is used for
production rather than consumption.

IV. CONCLUSION
WHEREFORE request this court should now reverse with prejudice considered grant Petitioner
For an Extraordinary Writ For by this Court Prohibition Mandamus and set the matter on court docket
for briefing on the issues relief null void the order stay herein.R.17 R.20. Under penalty of purjury.

28 USC 1746

respectfully presented

auth rep by:
O.

M K D^pj^-103

50 Eest 191 Street Apt 4m
Bronx in New York 10468
livydouce@gmail.com cel 829-343-8020
Tele 646-353-4429

